                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                 Administration of Payments Received
                Under the Help America Vote Act by the
                      Arizona Secretary of State



                  APRIL 28, 2003 THROUGH JANUARY 31, 2011




Report No.
E-HP-AZ-04-11
August 2011
                   U.S. ELECTION ASSISTANCE COMMISSION


                            OFFICE OF INSPECTOR GENERAL


                           1201 New York Ave. NW - Suite 300


                                 Washington, DC 20005




                                                            August 22, 2011

Memorandum


To:		      Thomas Wilkey
           Executive Director

From:		    Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the Arizona Secretary of State (Assignment Number E­
           HP-AZ-04-11)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received
under the Help America Vote Act (HAVA) by the Arizona Secretary of State (SOS). The
contract required that the audit be done in accordance with U.S. generally accepted
government auditing standards. Clifton Gunderson is responsible for the attached
auditor’s report and the conclusions expressed therein.

        In its audit of the SOS, Clifton Gunderson concluded that, except for the
questionable use of HAVA funds for promotional activities, the lack of personnel
certifications, and the maintenance of adequate property records, our audit concluded that
the SOS generally accounted for and expended HAVA funds in accordance with the
HAVA requirements and complied with the financial management requirements
established by the U.S. Election Assistance Commission. The SOS also complied with
section 251 requirements.

         In his May 10, 2011 response (Appendix A-2), the SOS generally agreed with the
findings and recommendations, except for the questioned costs for Kids Voting Arizona.
In his July 6, 2011 response to the draft report (Appendix A-1), the SOS confirmed his
initial responses to the audit results.

        Also, we have included in the report the EAC response to the draft report
(Appendix A-3), dated July 15, 2011, which stated the action proposed to assist the SOS
in resolving the findings and recommendations. We would appreciate being kept
informed of the actions taken on our recommendations as we will track the status of their
implementation. Please respond in writing to the finding and recommendation included in
this report by October 24, 2011. Your response should include information on actions
taken or planned, targeted completion dates, and titles of officials responsible for
implementation.
        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. §
App.3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report to
Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
                     
                     
     PERFORMANCE AUDIT REPORT
 


ADMINISTRATION OF PAYMENTS RECEIVED
 

             UNDER THE
 

       HELP AMERICA VOTE ACT
 

               BY THE
 

         STATE OF ARIZONA
 


 APRIL 28, 2003 Through January 31, 2011


           UNITED STATES
 

  ELECTION ASSISTANCE COMMISSION
 

                   
                   
                   
                     
                     
                     




                    a1 
                                                                     
TABLE OF CONTENTS




                                                                                                                      PAGE
 

EXECUTIVE SUMMARY ............................................................................................................1
	
	

BACKGROUND..........................................................................................................................2
	
	

AUDIT OBJECTIVES .................................................................................................................3
	
	

SCOPE AND METHODOLOGY .................................................................................................4
	
	

AUDIT RESULTS .......................................................................................................................4
	
	

APPENDICES
 


Appendix A-1: Secretary of State Response to Draft Report.................................................8
	
	

Appendix A-2: Secretary of State Responses to Audit Results.............................................9
	
	

Appendix A-3: U. S. Election Assistance Commission Response to Draft Report.............11
	
	

Appendix B: Audit Methodology............................................................................................12 


Appendix C: Monetary Impact as of January 31, 2011 .........................................................13
	
	
                        U.S. Election Assistance Commission
 

        Performance Audit of the Administration of Payments Received Under the
 

                    Help America Vote Act by the State of Arizona
 


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Arizona
Secretary of State (SOS) for the period April 28, 2003 through January 31, 2011 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for program income and property purchased with HAVA
payments, and met HAVA requirements for Section 251 funds for an election fund and for a
matching contribution. Our audit did not include a determination that the SOS and it sub
grantees met the requirements for maintenance of a base level of state outlays, commonly
referred to as Maintenance of Expenditures (MOE).

On June 28, 2010, the Commission issued a revised definitive policy on the requirements for the
MOE. The policy included a provision that the states will have 12 months from the date of the
revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our scope of
audit did not include a determination of whether the SOS and its subgrantees met the
requirements for MOE.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •		 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

   •		 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the questionable use of HAVA funds for promotional activities, the lack of personnel
certifications, and the maintenance of adequate property records, as discussed below, our audit
concluded that the SOS generally accounted for and expended HAVA funds in accordance with
the requirements mentioned above for the period from April 28, 2003 through January 31, 2011.
The exceptions needing SOS’s management attention are as follows:



                                                1
	
    1.				 SOS incurred unallowable HAVA expenses of $20,000 for the Kids Voting Arizona
           program.

    2.				 SOS did not prepare the semi-annual certifications as required by OMB Circular A-87 for
           the salary and expenses of $147,141 from April 1, 2004 through March 31, 2007. .

    3.				 Records for HAVA funded equipment for one of the six counties we visited did not
           conform to 41 C.F.R. 105-71.132 (f) (the Common Rule). There were errors in the
           information listed for some of the equipment.

We have included in this report as Appendix A-2 the SOS management’s formal response on
May 10, 2011 to our notice of findings and recommendations (NFRs). We have also included as
Appendix A-1 the SOS management’s response on July 6, 2001 to the draft report in which they
confirmed their initial responses to the audit results. Although we have included management’s
written responses to our NFRs, such responses have not been subjected to the audit procedures
and, accordingly, we do not provide any form of assurance on the appropriateness of the
responses or the effectiveness of the corrective actions described therein. The SOS generally
agreed with the findings and recommendations except for the questioned costs for Kids Voting
Arizona. The SOS believes these expenditures are in line with the intent of Section 295 of
HAVA, the National Student and Parent Mock Elections section, and meet the goals of the
programs to educate high school age students on the voting process and to encourage
participation in elections.

BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •		 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •		 Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •		 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •		 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b)(5)].

    •		 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254 (a)(7)].



                                                 2
	
    •		 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Arizona SOS:

    1.				 Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
           HAVA and applicable requirements;

    2.				 Accurately and properly accounted for property purchased with HAVA payments and for
           program income;

    3.				 Met HAVA requirements for Section 251 funds for an election fund and for a matching
           contribution except for the requirements for maintenance of a base level of state outlays,
           commonly referred to as Maintenance of Expenditures (MOE). On June 28, 2010, the
           Commission issued a revised definitive policy on the requirements for the MOE. The
           policy included a provision that the states will have 12 months from the date of the
           revised policy to voluntarily submit a revised MOE plan to the EAC. Accordingly, our
           scope of audit did not include a determination of whether the SOS and its subgrantees
           met the requirements for MOE.

In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.				 Comply with the Uniform Administrative Requirements for Grants and Cooperative
           Agreements with State and Local Governments (also known as the “Common Rule”) as
           published in the Code of Federal Regulations at 41 CFR 105-71.

    2.				 Expend payments in accordance with cost principles for establishing the allowance or
           disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3. Submit detailed annual financial reports on the use of Title I and Title II payments.




1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.




                                                         3
	
	
   SCOPE AND METHODOLOGY
   We audited the HAVA funds received and disbursed by the SOS from April 28, 2003 through
   January 31, 2011 (93-month period) as shown in the following table:
                    FUNDS RECEIVED                                 
 TYPE OF    EAC    PROGRAM    STATE    INTEREST     TOTAL      FUNDS                                                           DATA
 
PAYMENT  PAYMENT  INCOME      MATCH     EARNED    AVAILABLE  DISBURSED                                                         AS OF

                                                                                                              
Section 101           $  5,451,369     $             0   $              0   $   763,966     
                                                                                               $  6,215,335   $  2,095,600     1/31/2011
Section 102              1,564,188                   0                  0             0           1,564,188      1,564,188  1/31/2011
Section 251            45,516,688                    0     2,396,588         5,406,754          53,320,030     43,095,027  1/31/2011
                                                                                                                           
Total                 $52,532,245   $             0   $2,396,588   $6,170,720                  $61,099,553   $46,754,815  1/31/2011

   Our audit methodology is set forth in Appendix C.
   AUDIT RESULTS
   We conducted this performance audit in accordance with Generally Accepted Government
   Auditing Standards. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
   based on our audit objectives. We believe that the evidence obtained provides a reasonable
   basis for our findings and conclusions based on the audit objectives. Because of inherent
   limitations, a study and evaluation made for the limited purposes of our review would not
   necessarily disclose all weaknesses in administering HAVA payments.
   Except for the questionable use of HAVA funds for promotional activities, the lack of personnel
   certifications, and the maintenance of adequate property records, our audit concluded that the
   SOS generally accounted for and expended HAVA funds in accordance with the requirements
   mentioned above. The SOS has taken action on or is working to resolve the exceptions
   described below as set forth in Appendix A-2:
   I.    Unallowable Expenses
   The State of Arizona Office of the Secretary of State (SOS) used Section 251 Help America
   Vote Act (HAVA) funds totaling $20,000 that may not be allowable since the program was not
   related to direct voter education. The HAVA requires that funds be used for educating voters.
   The SOS used the funds for the Kids Voting Arizona (KVA) program. The payment included
   $8,000 for the High School Civics Connection Program, $7,000 for the Tribal Election
   Connection Program and $5,000 for the Destination Democracy after School Program. The
   purpose of the program was to inform school age children about the voting process and to
   increase voter turnout since the parents would be involved in assisting the children with the
   program.
   HAVA Section 101(b) Use of Payment describes the qualifying expenditures and includes, in
   part:

               (1)(B) Improving the administration of elections for federal office

               (1)(C) Educating voters concerning voting procedures, voting rights, and voting
                      technology



                                                                       4
	
Recommendation:

1.				   We recommend that the EAC work with the SOS to decide whether to allow or disallow the
         costs associated with the KVA program.

SOS Response:

The SOS disagreed with the finding that providing funds to Kids Voting Arizona would fall
outside the scope of voter education. The SOS believes that all three programs were targeted
to high school students, ages 16 to 18, who would be eligible to vote in the next general
election. He also believes that the programs were in line with the intent of HAVA Section 295,
the National Student and Parent Mock Elections section, the goals of which were to educate
high school age students on the voting process and to also encourage participation in elections.

Auditor’s Response:

EAC has determined in FAQ-08-005 that the use of HAVA funds to educate non-voters and to
increase voter turnout is not allowed under HAVA.

II.	 	 Uncertified Personnel Expenditures

The SOS did not complete semi-annual certifications for the one full-time employee that worked
on HAVA activities for the period of April 1, 2004 through March 31, 2007, and the EAC has no
assurance that the salaries and fringe benefit costs of $147,141 expended from the HAVA fund
during this period were incurred for work done solely on HAVA activities. However, the SOS did
obtain the appropriate semi-annual certifications for the one full-time employee for the period of
April 1, 2007 through the audit period end date of January 31, 2011.

OMB Circular A-87, in Attachment B Section 8(h)(3) requires that:

          (3) Where employees are expected to work solely on a single federal award or cost
              objective, charges for their salaries and wages will be supported by periodic
              certifications that the employees worked solely on that program for the period
              covered by the certification. These certifications will be prepared at least semi-
              annually and will be signed by the employee or supervisory official having firsthand
              knowledge of the work performed by the employee.

Recommendation:

2.				   We recommend that the EAC work with the SOS to determine the appropriate corrective
         action regarding the lack of periodic payroll certifications.

SOS Response:

The SOS acknowledged that the personnel certifications were missing for the period April 1,
2004 through March 31, 2007, and assured the EAC that the salaries and employee related
expenses during the period were spent solely for HAVA related work. The SOS included
retroactive certifications with this response to correct the deficiencies.




                                                 5
	
III.	 	 Property Records

The HAVA voting equipment listing we received from one of the six counties we visited did not
conform to the requirements of 41 CFR 105-71.132, (the Common Rule). We identified the
following discrepancies:

         •		 The county’s accounting records showed that the county purchased 106 machines, and
             we counted 106 machines on site. However, an Automark TSX voting machine could not
             be located amongst the voting machines because the county had not properly tagged all
             of the equipment.
         •		 A duplex printer was listed on the inventory records, but in fact was not an asset owned
             by the county. The county’s property records erroneously included the printer.
         •		 A Dell personal computer was listed on the inventory records for the county recorder’s
             office, but was located at the county elections office.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 (f), (“the Common Rule”) states that in the event
a grantee or subgrantee is provided federally-owned equipment:
         (2) Grantees or subgrantees will manage the equipment in accordance with Federal agency
             rules and procedures, and submit an annual inventory listing.

Recommendation:

3.				    We recommend that the SOS require the staff of both the county elections office and the
          recorder’s office to conduct a physical inventory of all HAVA-funded equipment to ensure
          that the property records reflect the correct information.

SOS Response:

The SOS concurred with the finding and stated that they were requiring the staff at the county to
conduct a full physical inventory of all HAVA funded equipment to ensure that the property
records reflect the correct information. In addition, they are requiring that property tags be
secured to the proper equipment and cross-referenced to the manufacturer’s serial numbers.
The SOS also stated that a follow-up audit will be conducted with the county to ensure
compliance.

                                   ****************************************

We provided a draft of our report to the appropriate individuals of the Arizona SOS and the
Commission. We considered any comments received prior to finalizing this report.

The EAC responded on July 15, 2011 and generally agreed with the report’s findings and
recommendations. The EAC stated that, while they generally agreed with the findings, they
would work with the SOS to gather additional information about the Kids Voting Arizona program
to determine whether the costs should be allowed or disallowed. The EAC’s complete response
is included as Appendix A-3




                                                      6
CG performed its work between February 22, 2011 and March 10, 2011.
	
	

a1

 
Calverton, Maryland
March 23, 2011




                                             7
	
	
                                                                                 Appendix A-1



                               KEN BENNETT 

                            SECRETARY OF STATE 

                              STATE OF ARIZONA 

                                                                                  2G12




                                     July 6, 2011



Curtis Crider
Office of the Inspector General
Election Assistance Commission
1201 New York Avenue NW Suite 300
Washington, DC 20005

Dear Curtis:

The draft report entitled "Performance Audit Report - Administration of Payments
Received Under the Help America Vote Act by the State of Arizona" dated March 23,
2011 accurately reflects OUf responses to the findings. We had hoped that our responses
to the Unallowable Expenses Finding and the Uncertified Personnel Expenditures would
have adequately addressed each finding. Since those two findings are still in the draft
audit report, we will wait to address those points with the Election Assistance
Commission.

                                     Sincerely,



                                    ~~ 

                                     Arizona Secretary of State




                           1700 W. Washington Street, 7th Floor 

                               Phoenix, Arizona 85007-2888 

                       Telephone (602) 542-4285 Fax (602) 542-1575 

                                      www.azsos.gov
                                            8
                                                                                Appendix A-2



                                KEN BENNETT 

                             SECRETARY OF STATE 

                               STATE OF ARIZONA 



Mr. Curtis Crider
U.S. ELECTION ASSISTANCE COMMISSION
OFFICE OF INSPECTOR GENERAL
1201 New York Ave. NW - Suite 300
Washington, DC 20005

Dear Curtis:

Thank you for the opportunity to respond to the three N olice of Findings and
Recommendations. We appreciated having Nick and Dottie on site to perform the audit.
Please find our responses to the three Notice of Findings and Recommendations (NFR)
for Arizona.

NFR #1 - Questioned Costs

The first comment we have on NFR #1 is that we do not agree with the finding. The
comments from the Audit Personnel stated that we agreed with it. This most likely got
confused since we did state that after we read other state audits, we anticipated the Kid's
Voting expense being a possible finding.

We do not agree with the finding since all three of the programs of Kid's Voting that the
Arizona Secretary of State funded were targeted at high school students. In Arizona, a
registrant can be a person who will be 18 years of age by the next General Election. This
can include registrations of ages 16 to 18 years old. All three of the programs funded
with HAVA monies targeted a group of students of whom many were of an age to
properly register to vote for the next General Election. All the programs funded with
HAV A monies were much in line with the intent of Section 295 of HAV A, the National
Student and Parent Mock Elections section. The goals of the programs were to educate
high school age students on the voting process and to also encourage participation in
elections.

NFR #2 - Personnel Certifications

The Arizona Secretary of State's office had one full time HAVA posi tion for the period
of April 1, 2004 through March 31, 2007. Once we determined that a certification was
required, we added the statement to the bi-weekly timesheet in 2007. While we
acknowledge that we did not have the semi-annual form filled out for the period in
question, the job description for that position clearly indicates this was a full time HAVA
resource. We have recently gone back and received certifications from the employees that
filled that position in order to remedy the situation. Those certifications are included
with our response. We feel strongly that the EAC can rest assured that the salaries and


                             1700 W. Washington Street, 7th Floor 

                                 Phoenix, Arizona 85007-2888 

                         Telephone (602) 542-4285 Fax (602) 542-1575 

                                        www,azsos.gov
                                             9
employee related expenses spent from the HAV A fund during this period were solely 

incurred for HAVA related work. 


NFR #3 - Property

The Arizona Secretary of State's office has no disagreement with this finding. We are 

requiring the staff at Pinal County to conduct a full physical inventory of all HAV A 

funded equipment to ensure that the property records reflect the correct information. In 

addition we are requiring that property tags be secured to the proper equipment and are 

cross referenced to the manufacturer's serial numbers. The Arizona Secretary of State's 

office will conduct a follow-up audit with Pinal County to ensure Pinal County is in 

compliance. 




~tp .~'-/~
Arizon:J!::l:e Election Director

Note: The payroll certifications provided with the SOS response are not
included in this report, but are available to the EAC upon request.




                                            10
                                                                     Appendix A-3




                     EAC RESPONSE TO THE DRAFT AUDIT:
                     OIG Performance Audit Report on the Administration of
                     Payments Received Under the Help America Vote Act by the
                     State of Arizona, for the Period April 28, 2003 Through
                     January 31, 2011

July 15, 2011

MEMORANDUM

To: 	           Curtis Crider
                Inspector General

~
~
                Thomas Wilkey
                Executive Director

Subject: 	      Draft Performance Audit Report - "Administration of Payments
                Received Under the Help America Vote Act by the State of
                Arizona".

Thank you for this opportunity to review and respond to the draft audit report for
Arizona.

The Election Assistance Commission (EAC) has reviewed the preliminary audit
results and recommendations. While we generally concur with the findings, we
will work with the Arizona Secretary of State to gather additional information
about funds used for the Kids Voting Arizona program to determine whether
costs should be allowed or disallowed.




                                      11
                                                                                        Appendix B
                                    AUDIT METHODOLOGY

Our audit methodology included:

•		 Assessing audit risk and significance within the context of the audit objectives.

•		 Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•		 Understanding relevant information systems controls as applicable.

•		 Identifying sources of evidence and the amount and type of evidence required.

•		 Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•		 Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•		 Reviewed prior single audit reports and other reviews related to the state’s financial
    management systems and the HAVA program for the last four (4) years.

•		 Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•		 Analyzed the inventory lists of equipment purchased with HAVA funds.

•		 Tested major purchases and supporting documentation, and tested randomly sampled
    payments made with the HAVA funds.

•		 Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•		 Reviewed certain state laws that impacted the election fund.

•		 Examined appropriations and expenditure reports for state funds used to meet the five
    percent matching requirement for section 251 requirements payments.

•		 Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the financial status reports, Form SF-269 and 425, accounting for
    property, purchasing HAVA related goods and services, and accounting for salaries.

•		 Verified the establishment and maintenance of an election fund.

•		 Conducted site visits of selected counties to observe physical security/safeguard of
    equipment purchased with HAVA funds and to test for proper accounting and
    documentation.


                                                12
                                                                      Appendix C


                MONETARY IMPACT AS OF JANUARY 31, 2011
 




                                             Questioned        Additional Funds for
             Description                       Costs                 Program

Kids Voting Arizona                                  $20,000                       $0

Personnel expenditures                              $147,141                       $0


Totals                                              $167,141                       $0
   




                                         13
	
	
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
